                    March 29, 2002

                    KEITH STRANGE
                    VICE PRESIDENT, PURCHASING AND MATERIALS

                    SUBJECT:	 Management Advisory - Review of Contracts
                              Associated With Biohazard Threat
                              (Report Number CQ-MA-02-002)

                    This is the Office of Inspector General's (OIG) second and
                    final management advisory on its review of expedited
                    contracts the Postal Service issued to deal with the
                    biohazard threat facing the mail, employees, and the public.
                    This review was self-initiated by the OIG (Project
                    Number 02BG007CQ001). Our intent was to protect the
                    interests of the Postal Service by making recommendations
                    as soon as we identified issues. The purpose of the review
                    was to determine whether the Postal Service deviated from
                    standard purchasing procedures in response to the
                    biohazard threat and identify implications of any deviations.

Results in Brief	   The review revealed that contracts and delivery orders were
                    awarded using deviated purchasing procedures. The Postal
                    Service used deviated procedures to award the contracts as
                    quickly as possible in response to the biohazard threat.
                    However, some of those deviations exposed the Postal
                    Service to increased financial risk.

                    The Postal Service issued several contracts and delivery
                    orders between October and November 2001. The first
                    report we issued summarized our review of one contract for
                    irradiation equipment. This report includes our review of
                    ten service contracts and delivery orders totaling
                    $70.3 million that were awarded during the same timeframe
                    as the irradiation equipment contract. Consequently, the
                    Postal Service did not have sufficient time to implement
                    corrective actions between the time we issued our first
                    report and award of the ten contracts and delivery orders
                    covered in this review. As a result, we identified some of
                    the same issues previously reported. These issues


                            Restricted Information
Review of Contracts Associated With Biohazard Threat	                         CQ-MA-02-002



                               included deviations from standard indemnification
                               procedures; and contracts and delivery orders that did not
                               include determinations of price reasonableness, damages
                               or remedy provisions, and file documentation to support the
                               rationale for important contract decisions.

                               We also identified two new issues which included:

                                  •	 Contract increases totaling approximately
                                     $53.7 million, which lacked supporting documentation
                                     of how the reasonableness of the increases was
                                     determined.

                                  •	 A $598,780 payment to a supplier for work, which we
                                     were unable to determine was provided as required,
                                     at the Morgan Station, New York Processing and
                                     Distribution Center.

                               To address these issues and further protect the interests of
                               the Postal Service, we made six recommendations to
                               improve purchasing procedures for the contracts reviewed
                               and future expedited contracts. We recommended that
                               contract officials document the basis for important contract
                               decisions, including determinations of price reasonableness;
                               audit costs incurred by suppliers; and improve procedures
                               for certifying invoices. Management agreed with our
                               recommendations and has initiatives in progress,
                               completed, or planned addressing the issues in this report.
                               Management’s comments, in their entirety, are included in
                               Appendix B of this report.

                               While we have made recommendations to improve
                               purchasing procedures, Postal Service contracting and
                               environmental officials stated, and we acknowledge, that the
                               Postal Service has instituted controls to assist with
                               monitoring contract work. However, the OIG has not
                               performed an in-depth review of the controls and, as such,
                               has not validated the effectiveness of these controls.

 Background	                   The Postal Service expects to receive $675 million in
                               emergency funding from Congress in response to the
                               biohazard threat facing the mail, employees, and the public.
                               To deal with this threat, the Postal Service awarded
                               contracts and delivery orders for gloves and masks for mail
                               handlers; irradiation services; testing, sampling,
                               decontamination, and clean-up services; construction

                                                    2
                                         Restricted Information
Review of Contracts Associated With Biohazard Threat	                           CQ-MA-02-002



                               management; and transporting mail to irradiation facilities in
                               Lima, Ohio, and Bridgeport, New Jersey.

                               Of the ten contracts we reviewed, the Postal Service
                               awarded eight contracts directly to suppliers and used
                               two existing contracts awarded by other agencies. On
                               some of these contracts, the Postal Service issued delivery
                               orders. The two existing contracts awarded by other
                               agencies include a General Services Administration contract
                               with IT Corporation, and a United States Coast Guard
                               contract with Clean Harbors.

                               The Postal Service awarded the contracts and delivery
                               orders as quickly as possible because it was operating in an
                               emergency environment due to the deaths that occurred. In
                               addition, the Postal Service was receiving direction and
                               guidance from the White House Office of Science and
                               Technology Policy Group. As a result, the Postal Service
                               used expedited contracting procedures in awarding the
                               contracts and delivery orders. The vice president,
                               Purchasing and Materials, authorized contracting officers to
                               make noncompetitive purchases without higher-level
                               approval when necessary, but urged them to use normal
                               processes whenever possible.

                               We recognize efforts made by Postal Service officials to
                               negotiate contract discounts and institute controls to assist
                               them in monitoring contract work. For example, according
                               to contracting officials:

                                  •	 Postal Service representatives were on-site to
                                     oversee decontamination and cleanup work at the
                                     Morgan Station, New York Processing and
                                     Distribution Center. The representatives provided
                                     assistance with cost control and daily monitoring of
                                     supplier performance. In addition, the Postal Service
                                     negotiated: adjustments to the supplier's overtime
                                     policy; a 10 percent discount on contract labor rates;
                                     a 2 percent discount on invoices paid within 10 days
                                     of receipt; and other credits. These negotiated items
                                     saved the Postal Service approximately $1.66 million
                                     through November 30, 2001.

                                  •	 The Postal Service has representatives on-site who
                                     will review decontamination work performed by
                                     suppliers at the Brentwood and Trenton Processing


                                                    3
                                         Restricted Information
Review of Contracts Associated With Biohazard Threat                           CQ-MA-02-002



                                      and Distribution Centers. The representatives will
                                      provide work inspections of security, sampling,
                                      decontamination, remediation, and health and safety
                                      practices and procedures. In addition, the
                                      representatives will review supplier invoices and
                                      monitor contract work.

 Objectives, Scope,            The objectives of the review were to determine whether the
 and Methodology               Postal Service deviated from standard purchasing
                               procedures in response to the biohazard threat and identify
                               implications of any deviations.

                               We reviewed ten major service contracts and delivery
                               orders totaling $70.3 million issued in response to the
                               threat, including contracts for irradiation services;
                               decontamination and cleanup; construction management;
                               testing, sampling, and bagging; and transportation.

                               To accomplish our objectives, we reviewed contract files
                               and purchasing policies and procedures used to issue these
                               contracts and delivery orders. We also interviewed Postal
                               Service contracting officials, management officials, and
                               Postal Service suppliers.

                               The review was conducted from November 2001 through
                               March 2002 in accordance with the President’s Council on
                               Integrity and Efficiency, Quality Standards for Inspections.
                               We discussed our conclusions and observations with
                               appropriate management officials and included their
                               comments, where appropriate.

 Prior Audit Coverage          The OIG reviewed the letter contract with the Titan
                               Corporation for the purchase of eight electronic beam
                               machines and issued Report Number CQ-MA-02-001,
                               December 28, 2001, on that review. We identified several
                               instances where contract provisions deviated from standard
                               contract language or were omitted from the contract. We
                               recommended that the Postal Service attempt to use
                               standard contract clauses in future expedited contracts for
                               irradiation equipment. Management's comments were
                               responsive to our findings and recommendations.

 Previously Reported           We reviewed ten contracts and delivery orders totaling
 Contract Deviations           $70.3 million that were awarded in response to the threat.
 Identified                    These contracts and delivery orders were issued during the
                               same timeframe as the Titan equipment contract we

                                                    4
                                         Restricted Information
Review of Contracts Associated With Biohazard Threat	                          CQ-MA-02-002



                               previously reviewed and reported on. Consequently, the
                               Postal Service did not have sufficient time to implement
                               corrective actions between the time we issued our first
                               report and award of the ten contracts covered in this review.
                               As a result, we identified some of the same issues
                               previously reported, as follows:

                                  •	 Two contracts totaling $3.8 million indemnify and hold
                                     suppliers harmless for all losses, damages, costs, and
                                     expenses, except to the extent they are negligent or
                                     commit willful acts. According to senior Postal
                                     Service officials, it is not the policy of the Postal
                                     Service to include indemnification language in
                                     supplies and services contracts. The Postal Service
                                     Purchasing Manual addresses indemnification as it
                                     relates to construction contracts but is silent as to
                                     indemnification for supplies and services contracts.
                                     Also, suppliers for these contracts would not provide
                                     services related to the biohazard threat without being
                                     indemnified.

                                  •	 Seven contracts and delivery orders totaling
                                     $66.3 million did not include evidence, such as
                                     technical analyses, to evaluate the reasonableness of
                                     proposed labor hours and material costs. The
                                     contracting officer relied on technical representatives
                                     from the Environmental Management Policy or Safety
                                     Performance Management Offices to determine if
                                     proposed prices were reasonable. The contracting
                                     officer requested documentation from the
                                     representatives to support the price reasonableness
                                     but did not receive it. The explanation the technical
                                     representatives gave, for not providing the necessary
                                     documentation, was that work under these contracts
                                     was being driven by the Center for Disease Control
                                     and other federal agencies. They also stated they
                                     had no experience with this type of biohazard
                                     emergency and, therefore, had no way to determine
                                     the level of labor hours and materials necessary to
                                     accomplish contract work.

                                  •	 The contract with Titan Scan Technologies for
                                     irradiation services did not include provisions for
                                     damages or remedies if services were not performed
                                     as required. According to senior Postal Service
                                     officials, they did not consider including this type of


                                                    5
                                         Restricted Information
Review of Contracts Associated With Biohazard Threat	                         CQ-MA-02-002



                                      protection in the contract. However, the Postal
                                      Service did include protection in a subsequent
                                      contract awarded to Ion Beam Applications for
                                      irradiation services. This protection consisted of a
                                      credit remedy in the contract to compensate the
                                      Postal Service for each hour of downtime experienced
                                      in the delivery of irradiation services.

                               While we understand the need to use expedited contracting
                               practices to award these contracts, the deviations and
                               omissions discussed above expose the Postal Service to
                               increased financial risk. To reduce the risk and further
                               protect Postal Service interests, we believe contracting
                               officers should use normal processes whenever possible.
                               According to senior Postal Service officials, they always
                               start with normal processes and standard clauses; however,
                               there are times when the Postal Service is forced to
                               negotiate with suppliers and deviate from standard contract
                               terms.

 Recommendations               We recommend for the contracts reviewed and future
                               expedited contracts, the vice president, Purchasing and
                               Materials, should require contracting officers to:

                               1.	 Obtain documentation to support that determinations of
                                   price reasonableness for labor hours and materials were
                                   made and maintain that documentation in contract files.

                               2.	 Include provisions for damages or remedies in contracts,
                                   whenever possible, to compensate the Postal Service
                                   when services are not performed as required.

                               3.	 Document contract files to support important contract
                                   decisions.

 Management's                  Management agreed with our recommendations and will:
 Comments                      (1) obtain documentation validating the hours and material
                               expended and billed, (2) include such documentation in the
                               contract files, (3) include provisions for damages or
                               remedies in contracts when it is considered in the best
                               interest of the Postal Service, and (4) document important
                               contract decisions. Within 30 days following receipt of the
                               final OIG report, a Purchasing Policies and Programs
                               electronic newsletter will be sent to purchasing employees,
                               highlighting concerns raised in the report.


                                                    6
                                         Restricted Information
Review of Contracts Associated With Biohazard Threat	                          CQ-MA-02-002




 Evaluation of                 Management's comments are responsive to our findings
 Management's                  and recommendations. The actions taken and planned
 Comments                      should address the issues identified in our report. While
                               management on the one hand states that very few of its
                               Purchasing Manual policies were deviated from, it admits on
                               the other hand that it did not follow normal contract
                               administration processes such as, obtaining documentation
                               supporting the reasonableness of labor hour and material
                               usage estimates prior to commencement of work, and
                               documenting contract files to support important contract
                               decisions. We continue to believe that as the immediate
                               threat subsides, management has the opportunity to award
                               contracts using standard contracting clauses and
                               procedures as much as possible, to further protect the
                               interests of the Postal Service.

 Contract Increases            Three of ten contracts reviewed had contract increases after
 Lacked Supporting             award, totaling approximately $53.7 million that lacked
 Documentation                 documentation showing how the reasonableness of the
                               increases was determined. The contracts were increased to
                               provide for additional work. While we are not questioning
                               the scope of work added to the contracts, we are
                               questioning how the Postal Service determined the
                               reasonableness of the $53.7 million in contract increases.

                               For example, we reviewed the following three contracts
                               which had significant contract increases without
                               documentation showing how the increases were determined
                               to be fair and reasonable:

                                  •	 Clean Harbors contract for decontamination and 

                                     cleaning of the Morgan Station Processing and 

                                     Distribution Center. The contract increased from 

                                     $5 to $22.8 million.


                                  •	 IT Corporation contract for testing, sampling,
                                     decontamination and cleaning of various Postal
                                     Service facilities. The contract increased from $3.3 to
                                     $30.2 million.

                                  •	 URS Group, Incorporated, contract for testing,
                                     sampling, and bagging. The contract increased from
                                     $525,000 to $9.5 million.




                                                    7
                                         Restricted Information
Review of Contracts Associated With Biohazard Threat                          CQ-MA-02-002




                               All three contracts were time-and-materials type contracts.
                               According to Section 2.4.5 of the Postal Service Purchasing
                               Manual, time-and-materials contracts provide for purchasing
                               supplies or services on the basis of direct labor hours at
                               specified fixed hourly rates and material at cost. This type
                               of contract should only be used if no other type of contract
                               will do, because it does not encourage effective control by
                               suppliers. In addition, when the Postal Service increases
                               contracts without determining the reasonableness of the
                               increases, it becomes exposed to increased risk of the
                               supplier overspending or exaggerating expenses related to
                               the contracts.

                               Section 6.2.2.a of the Postal Service Purchasing Manual
                               states that all actions taken must be documented, and
                               Section 6.2.2.b of the manual states that records must be
                               maintained in an official contract file. In interviews, the
                               contracting officer acknowledged her understanding of this
                               requirement, but stated that, because of the deaths at the
                               Brentwood mail facility, she did not want to be responsible
                               for delaying the process. Therefore, the contracting officer
                               issued the modifications for contract increases as requested
                               by senior Postal Service officials, without receiving
                               documentation supporting the reasonableness of the
                               increases and including the documentation in contract files.

                               The contracting officer relied on technical representatives
                               from the Environmental Management Policy or Safety
                               Performance Management Offices to determine if proposed
                               prices were reasonable. The contracting officer requested
                               documentation from the representatives to support the price
                               reasonableness and did not receive it. The explanation
                               technical representatives gave for not providing the
                               necessary documentation, was that work under these
                               contracts was being driven by the Center for Disease
                               Control and other federal agencies. They also stated they
                               had no experience with this type of biohazard emergency
                               and, therefore, had no way to determine the level of time
                               and materials necessary to accomplish the work. The
                               technical representatives stated that they increased the
                               contract amounts based upon dollars expended under initial
                               orders. However, we could not find nor were we provided
                               with documentation to show how contract increases were
                               determined to be fair and reasonable.



                                                    8
                                         Restricted Information
Review of Contracts Associated With Biohazard Threat	                            CQ-MA-02-002



 Recommendations               We recommend the vice president, Purchasing and
                               Materials:

                               4.	 Request contract audits of the costs incurred on all time
                                   and materials contracts issued in response to the
                                   biohazard threat.

                               5.	 Require contracting officers to obtain documentation
                                   showing how they, or their representatives, determined
                                   labor hours and material costs for the contract increases
                                   were fair and reasonable and maintain the
                                   documentation in contract files.

 Management's                  Management agreed with our recommendations and
 Comments                      because of the risks associated with using time and
                               materials contracts, will request the necessary contract
                               audits to protect the financial interests of the Postal Service.
                               In addition, management agreed to obtain and include
                               documentation verifying labor hours and materials billed in
                               contract files. These actions will be completed within
                               30 days following receipt of the final OIG report.

 Evaluation of                 Management's comments are responsive to our findings
 Management's                  and recommendations. The actions taken and planned
 Comments                      should address the issues identified in our report.

 Payment of                    The Postal Service contracted with IT Corporation to
 Questionable                  perform decontamination and cleanup services at the
 Invoice                       Morgan Station, New York Processing and Distribution
                               Center. However, based upon our review, we determined
                               that the supplier only provided equipment and set up a
                               decontamination area. We found no evidence that the
                               supplier actually performed decontamination and cleanup
                               services as required. As a result, we questioned the validity
                               of a $598,780 payment to IT Corporation for cleanup
                               services.

                               According to the contracting officer’s representative,
                               IT Corporation was not working in a timely manner;
                               therefore, the Postal Service obtained a new supplier to
                               perform decontamination and cleanup services at the
                               Morgan Station facility. The new supplier tore down
                               IT Corporation’s decontamination area and constructed a
                               new one before beginning their decontamination and
                               cleanup efforts. The contracting officer’s representative
                               believed IT Corporation did not provide the services it was

                                                    9
                                         Restricted Information
Review of Contracts Associated With Biohazard Threat	                          CQ-MA-02-002



                               contracted to perform. IT Corporation invoiced the Postal
                               Service for 9 days of cleanup services totaling $598,780.
                               The invoice was approved; however, we could not confirm
                               that the supplier actually performed decontamination or
                               cleanup services at the facility. The Postal Service
                               employee in Environmental Management Policy, who
                               approved the invoice for payment, was not on-site and could
                               not certify that the invoiced services were performed.

                               We discussed the validity of the invoice payment with senior
                               Postal Service officials. The officials informed us,
                               subsequent to our discussion, that the contracting officer
                               verified the services performed by IT Corporation at Morgan
                               Station are part and parcel of preparing a site for
                               decontamination and necessary for the safety of all
                               concerned. In addition, the contracting officer confirmed
                               with the on-site contracting officer's representative the
                               validity of the payment and determined that no
                               reimbursement to the Postal Service is warranted.

 Recommendation	               We recommend the vice president, Purchasing and
                               Materials:

                               6.	 Require contract invoices to be approved by the person
                                   responsible for monitoring supplier performance prior to
                                   payment, to ensure the Postal Service is not paying for
                                   services it has not received, and document the file
                                   accordingly.

 Management's                  Management agreed with our recommendation and stated
 Comments                      that although the individual and process for invoice
                               certification may vary from contract to contract, the Postal
                               Service official with first hand knowledge of contractor
                               performance should provide information and documentation
                               to the person responsible for certifying contract invoices.

 Evaluation of                 Management's comments are responsive to our findings
 Management's                  and recommendations. The actions taken and planned
 Comments                      should address the issues identified in our report.




                                                   10
                                         Restricted Information
Review of Contracts Associated With Biohazard Threat	                        CQ-MA-02-002




                               The OIG considers recommendations 1,2,4,5 and
                               6 significant and, therefore, requires OIG concurrence
                               before closure. Consequently, the OIG requests written
                               confirmation when corrective actions are completed. These
                               recommendations should not be closed in the follow-up
                               tracking system until the OIG provides written confirmation
                               that the recommendations can be closed.

                               We appreciate the cooperation and courtesies provided by
                               your staff during the review. If you have any questions or
                               need additional information, please contact Kim H. Stroud,
                               director, Consulting and Quick Response, at (703)
                               248-2100, or me at (703) 248-2300.



                               Ronald D. Merryman
                               Acting Assistant Inspector General
                                for eBusiness

                               Attachment

                               cc: 	Richard J. Strasser, Jr.
                                    Susan M. Duchek




                                                   11
                                         Restricted Information
          Review of Contracts Associated With Biohazard Threat                                                CQ-MA-02-002




                                APPENDIX A
             SUMMARY OF CONTRACTS AND DELIVERY ORDERS REVIEWED


                                                        Contract or
                                                         Delivery     Standard                  Standard     Price    Damages
Contract     Supplier    Period of     Description of     Order       Indemni-     Standard     Payment    Reason­      and      Sufficient
Number        Name      Performance      Services        Amount        fication   Termination    Terms     ableness   Remedies   Warranty

 512593-
02-F-0308     Titan     10/25/01 –       Irradiation    $1,344,000       No          Yes          Yes        Yes        No         Yes
                         4/25/02          Services
 512593-
02-F-0394      IBA       11/7/01 –       Irradiation    $2,475,000       No          Yes          Yes        Yes        Yes        Yes
                          2/7/02          Services
483083-2-
 N-0099      IT Corp.   10/23/01 –    Decontamination   $30,200,000     Yes          Yes          Yes        No         *N/A       N/A
                         10/22/01       & Cleanup
483083-
 02-N-        Clean     10/31/01 –    Decontamination   $22,880,000     Yes          Yes          Yes        No         *N/A       N/A
 0108        Harbors     10/30/02       & Cleanup

483083-
 02-N-       Berger     10/31/01 –     Construction      $300,000       N/A          Yes          Yes        No         N/A        N/A
 0146                    10/30/02      Management

483083-                                  Testing,
 02-M-        URS       10/19/01 –     Sampling, &      $9,501,000      Yes          Yes          Yes        No         Yes        N/A
 0086         Corp.      10/18/02        Bagging
483083-
 01-Q-       Weston     10/24/01 –       Testing &       $172,000       Yes          Yes          Yes        No         Yes        N/A
 0354                    10/23/02        Sampling

             FedEx
G8893860     Custom     11/20/00 –     Transportation    $148,419       Yes          Yes          Yes        N/A        Yes        N/A
             Critical    10/31/02
483083-
 02-M-        Earth     10/29/01 –       Testing &      $1,250,000      Yes          Yes          Yes        No         Yes        N/A
 0135         Tech       10/28/02        Sampling

483083-
 02-M-        DPRA      10/19/01 –       Testing &      $2,003,200      Yes          Yes          Yes        No         Yes        N/A
 0081                    12/31/02        Sampling

  Total                                                 $70,273,619



          N/A – Clauses or provisions may not have been appropriate for this type of service.

          *N/A – These procurements represent orders placed against other agency contracts.
          The Postal Service could not add new clauses or provisions to the existing master
          contracts.




                                                                  12
                                                        Restricted Information
Review of Contracts Associated With Biohazard Threat              CQ-MA-02-002



                  APPENDIX B. MANAGEMENT’S COMMENTS




                                                   13
                                         Restricted Information
Review of Contracts Associated With Biohazard Threat              CQ-MA-02-002




                                                   14
                                         Restricted Information
Review of Contracts Associated With Biohazard Threat              CQ-MA-02-002




                                                   15
                                         Restricted Information
Review of Contracts Associated With Biohazard Threat              CQ-MA-02-002




                                                   16
                                         Restricted Information
Review of Contracts Associated With Biohazard Threat              CQ-MA-02-002




                                                   17
                                         Restricted Information
Review of Contracts Associated With Biohazard Threat              CQ-MA-02-002




                                                   18
                                         Restricted Information
